OIG Investigative Reports,  New Orleans Woman Charged in Bribery Scheme
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
The United States U.S. Attorney's Office
Eastern District of Louisiana
U.S. Attorney's
Office
Eastern District of
Louisiana
500 Poydras St
Suite 210-B
New Orleans,
Louisiana 70130
Tel: 504.680.3000
Fax: 504.589.4510
Press Releases
NEW ORLEANS WOMAN CHARGED IN BRIBERY SCHEME
March 7, 2008
FOR IMMEDIATE RELEASE
STACY SIMMS, age 46, a resident of New Orleans, Louisiana, was charged in a one-count bill of information with misprision of a felony, announced U.S. Attorney Jim Letten.
According to bill of information, concealed her knowledge of criminal conduct, by allowing a bank account in her name to be used in an effort to help disguise and conceal the flow of the bribe payments.
If convicted, STACY SIMMS faces a maximum term of imprisonment of three (3) years, a fine of $250,000.00 and one (1) year of supervised release following any term of imprisonment.
The case was investigated by the Federal Bureau of Investigation, the Criminal Division of the Internal Revenue Service and the Office of the Inspector General for the Department of Education.
U. S. Attorney Letten reiterated that the bill of information is merely a charge and that the guilt of the defendant must be proven beyond a reasonable doubt.
The case is being prosecuted by Assistant U. S. Attorneys Salvador Perricone, Richard R. Pickens, II and Michael Simpson.
Download Bill of Information  (PDF)
Top
Printable view
Share this page
Last Modified: 03/25/2008
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov